                            CLOSEOUT FOR M96120043

        This case came to OIG on December 16, 1996, when we received a letter from
Dr. (       t     h       e complainant) alleging intellectual then in an NSF-supported
article authored by Drs. f              the                           (the first subject)
and                   of the                v                        e second subject).
T h e m g e d htaa-lrnied                                   credit for results that the
compla&nt had developed and had communicated to the fust subject. According to
the complainant, he had developed the results in response to the first subject's
suggestion that he explore some anomalous findings that the subjects had reported in a
previous paper of theirs. He had developed the results approximately five years before
he contacted OIG.
       The complainant did not specify what research results the subjects allegedly
misappropriated. Although the complainant repeatedly offered to provide documents
that would clarify and substantiate his allegation, he failed to do so despite repeated
requests from OIG.
       OIG concluded that it was not feasible to pursue this allegation in the absence of
more specific information that only the complainant could provide. This inquiry is
closed and no further action will be taken on this case.
cc: Legal, AIGO, Acting IG




                                   Page 1 of 1                               M96-43
